Report No. D-2011-099                          August 23, 2011




       Additional Actions Needed to Mitigate Risks of
      Unsuitable Life Insurance Sales to Junior Enlisted
                       Service Members
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
DFAS                          Defense Finance and Accounting Service
DON                           Department of the Navy
GAO                           Government Accountability Office
NAIC                          National Association of Insurance Commissioners
PDUSD (P&R)                   Principal Deputy Under Secretary of Defense for Personnel
                                and Readiness
SECNAVINST                    Secretary of the Navy Instruction
SGLI                          Servicemembers’ Group Life Insurance
                                     INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGI NIA 22202-4704                        AUG 2 3 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND
                 READINESS
              COMMANDANT OF THE MARINE CORPS
              ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
              DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              NA V AL INSPECTOR GENERAL


SUBJECT: Additional Actions Needed to Mitigate Risks of Unsuitable Life Insurance Sales to
         Junior Enlisted Service Melnbers (Report No. D-2011-099)

We are providing this report for review and conunent. The inlpact of DoD Instruction 1344.07,
"Persona1 COlll111ercial Solicitation on DoD Installations," March 30, 2006, and Inandated
refonns in the Public Law 109-290 were generally effective. However, SOlne life insurance
agents continue to use prohibited practices to sell unsuitable life insurance products to junior
enlisted Service Inembers. We considered COlTIlnents on a draft of this report vvhen preparing the
final report.

DoD Directive 7650.3 requires that all recolllillendations be resolved promptly. The COlnnlents
from the Defense Finance and Accounting Service and U.S. Anny Garrison, Fort Canlpbell,
confornled to the requirelnents of DoD Directive 7650.3; therefore, additional COl11tnents are not
required. However, the Deputy Assistant Secretary of Defense for Military Conm1l.1nity and
Falnily Policy vvas responsive but did not provide a cOll1pletion date for the planned actions. As
a result of the Deputy Assistant Secretary comnlents, we revised draft Reconunendation 1.a to
clarify reporting requirenlents needed for the C0111luercial Solicitation Report. We request the
Deputy Assistant Secretary COlTInlent on Recomlnendations 1.a, l.b, l.c, and 2 by Septelnber 22,
2011 that include a cOlnpletion date.

Please provide COlll111ents that conform to the requirelnents of DoD Directive 7650.3. If
possible, please send a .pdf file containing your conunents to audros@dodi g.lllii. Copies of
Inanagement conunents must have the actual signature of the authorizing official for your
organization. We are unable to accept the /Signed/ sYlnbol in place of the actual signature. If
you anange to send classified COlll111ents electronically, you must send theln over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to lne at (703) 604-
8866 (DSN 664-8866).



                                           (JJ~~~
                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2011-099 (Project No. D2010-D000LD-0095.000)                   August 23, 2011



               Results in Brief: Additional Actions Needed to
               Mitigate Risks of Unsuitable Life Insurance
               Sales to Junior Enlisted Service Members
                                                                personnel or State insurance regulators;
What We Did                                                     and
                                                             • DoD did not have adequate knowledge of
Public Law 109-290 requires the DoD Office of
                                                               agents and companies debarred, banned, or
Inspector General to conduct a study on the                    limited from solicitation on and near DoD
impact of DoD Instruction 1344.07, “Personal                   installations.
Commercial Solicitation on DoD Installations,”
March 30, 2006, and the reforms included in the          Although DoD and some States have taken
law on the quality and suitability of sales of           corrective actions, junior enlisted Service
securities and insurance products marketed to            members continue to purchase high-cost life
members of the Armed Forces. We visited six              insurance products considered unsuitable for
military bases, reviewed State insurance actions,        most military personnel, and these products may
analyzed DoD pay records, spoke with DoD and             threaten their financial stability.
State regulatory officials, and had Service
members complete questionnaires.                         What We Recommend
What We Found                                            Among other recommendations, we recommend
                                                         that the Deputy Assistant Secretary of Defense
The impact of DoD Instruction 1344.07 and                for Military Community and Family Policy,
mandated reforms in Public Law 109-290 was               expand the requirement for types of information
generally effective. Although controls are               to be reported in the Personal Commercial
generally in place on military installations to          Solicitation Report; and require Military
protect Service members from sales of                    Services to update financial training to increase
unsuitable life insurance products, responsible          Service members’ awareness.
officials can and should take further action.
Sales of unsuitable life insurance products              Management Comments and
continued on or near five of six military bases
visited. This occurred because:                          Our Response
     • Insurance agents used prohibited sales            The Defense Finance and Accounting Service
        practices on and near bases;                     and U.S. Army Garrison, Fort Campbell,
     • Some responsible installation personnel           Kentucky, comments were responsive. The
        at Camp Pendleton and Marine Corps               Deputy Assistant Secretary of Defense for
        Camps in Okinawa, Japan, did not                 Military Community and Family Policy
        comply with existing solicitation policies       comments were responsive but did not provide a
        and guidance;                                    completion date for the planned actions. We
     • Junior enlisted Service members                   revised draft Recommendation 1.a to clarify
        inappropriately used the myPay system            reporting requirements needed for the
        to initiate life insurance allotments;           Commercial Solicitation Report. We request
     • Junior Enlisted Service members rarely            the Deputy Assistant Secretary provide
        filed complaints to appropriate base             comments on Recommendations by
                                                         September 22, 2011 that include a completion
                                                         date. See the recommendation table on page ii.
                                                     i
Report No. D-2011-099 (Project No. D2010-D000LD-0095.000)         August 23, 2011

Recommendations Table

        Management                   Recommendations         No Additional Comments
                                   Requiring Comment                Required
Deputy Assistant Secretary of   1.a, 1.b, 1.c, and 2.
Defense for Military
Community and Family Policy
Director, Defense Finance and                               3.
Accounting Service
Garrison Commander, Fort                                    4.
Campbell, Kentucky


Please provide comments by September 22, 2011.




                                          ii
Table of Contents

Introduction                                                                   1

      Objective                                                                1
      Background                                                               1
      Review of Internal Controls                                              5

Finding. Additional Actions Needed to Mitigate Risks of Unsuitable Life
Insurance Sales to Junior Enlisted Service Members                             6
          DoD, Military Services, and States Implemented Controls
               Regulating Commercial Solicitations                             6
          Insurance Agents Used Prohibited Sales Practices                     9
          Inappropriate Use of myPay to Initiate Life Insurance Allotments    19
          Lack of Complaints From Service Members Limits Corrective Actions   22
          DoD Needs to Improve Knowledge of Debarred and Banned Agents
               and Companies                                                  23
          State Insurance Regulators Took Punitive Actions                    24
          DoD Took Corrective Actions to Mitigate Risks                       25
          Actions for Congress to Consider to Assist with Mitigating Risks    27
          Conclusion                                                          28
          Management Comments on the Finding and Our Response                 29
          Recommendations, Management Comments, and our Response              29

Appendices

      A. Scope and Methodology                                                32
             Use of Computer–Processed Data                                   33
             Prior Coverage                                                   33
      B. Top Five Allotments by Service/Installation Started From
           January 2008 Through February 2010                                 34
      C. Endorsement Letter                                                   35

Management Comments

      Office of the Deputy Assistant Secretary of Defense for Military
             Community and Family Policy                                      36
      Defense Finance and Accounting Service                                  39
      U.S. Army Installation Management Command                               41
      U.S. Army Garrison, Fort Campbell, Kentucky                             42
Introduction
Objective
We initiated this audit in response to the requirements of Public Law 109-290, “Military
Personnel Financial Services Protection Act,” September 29, 2006. The law requires the
DoD Office of the Inspector General to conduct a study on the impact of DoD Instruction
1344.07, “Personal Commercial Solicitation on DoD Installations,” March 30, 2006, and
the reforms included in the law on the quality and suitability of sales of securities and
insurance products marketed to members of the Armed Forces. See Appendix A for a
discussion of the audit scope and methodology and prior coverage on this issue.

This is the third in a series of reports (see Prior Coverage in Appendix A) addressing the
reforms included in the law on the quality and suitability of sales of securities and
insurance products marketed to members of the Armed Forces. On December 30, 2010,
we provided briefing charts summarizing our tentative findings to the Committee on
Banking, Housing, and Urban Affairs of the Senate and the Committee on Financial
Services of the House of Representatives.

Background
This audit was performed in accordance with Public Law 109-290, Section 14. Public
Law 109-290 requires

       (a) STUDY.—The Inspector General of the DoD shall conduct a study on the impact of
              DoD Instruction 1344.07 (as in effect on the date of enactment of this Act) and
              the reforms included in this Act on the quality and suitability of sales of
              securities and insurance products marketed or otherwise offered to members of
              the Armed Forces.

       (b) REPORTS.—Not later than 12 months after the date of enactment of this Act, the
              Inspector General of the DoD shall submit an initial report on the results of the
              study conducted under subsection (a) to the Committee on Banking, Housing,
              and Urban Affairs of the Senate and the Committee on Financial Services of the
              House of Representatives, and shall submit followup reports to those
              committees on December 31, 2008 and December 31, 2010.

Prior Audits on Commercial Solicitation
Congress enacted Public Law 109-290 to protect members of the Armed Forces from
unscrupulous practices regarding sales of insurance, financial, and investment products.
Congress has found that certain life insurance products offered to members of the Armed
Forces were improperly marketed as investment products, providing minimal death
benefits in exchange for excessive premiums that are front-loaded in the first few years,
making them inappropriate for most military personnel. The results from our prior audits
identified that the reforms contained in Public Law 109-290 and the impact of revised
DoD Instruction 1344.07 have been generally effective in reducing commercial
solicitations of inappropriate life insurance products to military personnel by sales agents

                                                  1
on the DoD installations visited. Further, responsible DoD and State officials have
implemented corrective actions to address the use of inappropriate marketing practices
for unsuitable products and mitigate risks identified in our past reviews. For example, the
Military Services are providing personal financial readiness and consumer awareness
training, and the Military Services have updated and implemented guidance to help
prevent inappropriate insurance product sales to Military Service members on their
installations. Finally, a number of different safeguards are in place at DoD and at State
levels to protect Service members from prohibited marketing practices of unsuitable
products.

Servicemembers’ Group Life Insurance Program
All Military Service members are automatically enrolled in the Servicemembers’ Group
Life Insurance (SGLI) program on the first day of active duty or active duty training; or
the beginning of a period of inactive duty training. This program costs $3.25 per $50,000
in group term life insurance coverage, plus a mandatory $1 per month for Traumatic
Injury Protection. The maximum insurance available is $400,000, at a cost of $27. At no
cost to the Service member, the Military Service pays a one-time Death Gratuity Payment
of $100,000 to the designated beneficiary in the event of a Service member’s death while
on active duty. This payment is independent of the SGLI and is paid regardless of a
member’s participation in the SGLI program. Service members are provided options to
decline coverage or reduce coverage from the maximum (and automatically applied)
$400,000 benefit at the time of entry into active duty.

DoD’s Responsibilities for Developing Guidance on Commercial
Solicitation
The Principal Deputy Under Secretary of Defense for Personnel and Readiness
(PDUSD[P&R]), is responsible for developing the policies and procedures governing
personal commercial solicitation for life insurance and other products. Further, the heads
of DoD Components, or their designees, are responsible for ensuring implementation of
DoDI 1344.07 and compliance with its provisions. Each Military Service provides
additional regulations regarding commercial solicitations, and some installations further
specify how these DoD and Service policies and practices will be implemented locally.

Armed Forces Disciplinary Control Boards
Army Regulation 190-24/Office of the Chief of Naval Operations Instruction
1620.2A/Air Force Instruction 31-213/Marine Corps Order 1620.2D/Commandant,
United States Coast Guard Instruction 1620.1E, “Armed Forces Disciplinary Control
Boards and Off-Installation Liaison and Operations,” July 27, 2006, provides policies and
procedures for establishing and operating Armed Forces Disciplinary Control Boards
(Disciplinary Control Boards). Installation commanders may establish Disciplinary
Control Boards to advise and make recommendations for eliminating conditions




                                            2
adversely affecting the health, safety, welfare, morale, and discipline of military
personnel. The Disciplinary Control Boards:

    • are comprised of representatives from various functional areas such as law
      enforcement, legal counsel, health, and consumer affairs and are required to meet
      quarterly;
    • receive reports and take appropriate action on conditions related to issues such as
      disorder and lack of discipline, prostitution, liquor violations, illicit gambling, and
      unfair commercial or consumer practices; and
    • report to commanders in their area of responsibility the results of reports and
      recommended actions to prevent or control undesirable conditions and coordinate
      with appropriate civil authorities.

State Responsibilities for Insurance Regulation
State government entities are the primary regulators of insurance companies and agents.
The State insurance regulators oversee companies and agents in several ways, including
reviewing and approving products for sale and examining company operations to ensure
their financial soundness and proper market conduct. Although each State has its own
insurance regulations and laws, the National Association of Insurance Commissioners
(NAIC) coordinates the regulation of multi-state insurers. The NAIC is comprised of the
insurance department heads for each State, the District of Columbia, and five U.S.
territories. It provides a national forum for addressing and resolving major insurance
issues and for allowing regulators to develop consistent policies for regulating insurance
when appropriate.

As mandated by Public Law 109-290, the NAIC developed a Military Sales Practices
Model Regulation that provides standards for commercial solicitation and life insurance
products both on and off military installations. The regulation protects Service members,
ranks E-4 and below, by declaring certain actions as false, misleading, deceptive, or
unfair. As of September 20, 2010, 49 of 50 States, the District of Columbia, and Puerto
Rico had adopted or enacted legislation and accepted the model regulation as their State
insurance regulation, and Michigan is awaiting approval from its legislature on the model
regulation. Some States, such as, California, Kentucky, and Tennessee, extended the
protections to all Service members, regardless of rank.

Defense Finance and Accounting Service Allotment Data
The Defense Finance and Accounting Service (DFAS) oversees payroll computer
systems and databases. MyPay, an automated system operated by DFAS, allows DoD
personnel to electronically process certain discretionary pay data items including starting,
stopping, or changing allotments.

DoD Regulation 7000.14-R, Financial Management Regulation (DoD FMR), volume 7A,
Chapter 42, October 2010, allows Service members to use an allotment to pay for
commercial life insurance. Service members must make the allotment to the home or
branch office of the agency issuing the policy and not to a financial institution where the
allotment is established for or controlled by the life insurance company. Service

                                             3
members cannot change financial allotments in myPay for items such as charity,
insurance, thrift saving, garnishments, union, or other organizational dues.

Previous reviews by State insurance regulators have identified three banks, owned by two
related life insurance companies, which receive and process allotments from Service
members to pay for life insurance products.

Data provided by DFAS shows all allotments made by Service members, ranks E1-E4,
through the myPay system from January 2008 through March 2010 for the Army, Navy,
and Air Force; and from November 2007 through March 2010 for the Marine Corps. We
analyzed the data to determine the number of new allotments made to the three banks
previously identified. We did not verify that all of these allotments were to purchase life
insurance, but through conversations with the State insurance regulators, we determined
that the allotments had the characteristics of inappropriate life insurance sales. For
example, bank account numbers consisted of a specific prefix along with Service
members' social security numbers and/or life insurance companies' names in the
dependent field. Table 1 shows the universe of new allotments during the time periods
above for each of the Services.

                  Table 1. New Allotments Made to Targeted Banks
                        Number of New      Average Amount      Value of Total
                        Allotment Starts   of Allotment per       Monthly
                                                Month            Allotments
 Army                         8,394            $124.28           $1,043,215
 Navy                         1,439            $141.96             $204,283
 Air Force                    2,447            $147.34             $360,547
 Marine Corps                 3,385            $130.18             $440,675
    Total                    15,665            $130.78           $2,048,720


In June 2010, we received updated Marine Corps allotment data; and in September 2010,
we received updated data for the other Military Services. These updated data showed
when the allotment was started and if or when the allotment was stopped. Table 2 shows
the amount of money Service members paid into allotments still open as of August 2010
(as of June 2010 for the Marine Corps) and for those allotments that were closed.




                                             4
              Table 2. Amount Paid Into Allotments (in millions)
                           Open               Closed
                        Allotments          Allotments                         Total
 Army                      $4.05               $3.34                           $7.39
 Navy                      $0.88               $0.62                           $1.50
 Air Force                 $1.30               $0.96                           $2.26
 Marine Corps              $2.53               $1.40                           $3.93
  Total                   $8.76               $6.32                           $15.08


Allotments to one of the three banks from January 2008 through August 2010 were
stopped after an average of 4.65 months for soldiers, 4.62 months for sailors, and 3.96
months for airmen. Marines who started an allotment from January 2008 through
June 2010 stopped the allotment after an average of 5.21 months.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls providing reasonable assurance programs are operating as intended and
to evaluate the effectiveness of the controls. Although internal controls were in place to
prevent prohibited solicitations of unsuitable life insurance products on installations, we
identified internal control weaknesses in the supervision and enforcement of commercial
solicitation practices on base at Marine Corps Base Camp Pendleton, California; and
Marine Corps Camps in Okinawa, Japan. Headquarters, U.S. Marine Corps, Marine
Corps Base Camp Pendleton, California; and Marine Corps Camps in Okinawa, Japan,
implemented corrective actions during our audit to address internal control issues we
identified. In addition, we identified additional actions that responsible officials must
address to further mitigate risks pertaining to the sale of unsuitable life insurance
products. See the finding for details. We will provide a copy of the report to the senior
officials responsible for internal controls.




                                             5
Finding. Additional Actions Needed to
Mitigate Risks of Unsuitable Life Insurance
Sales to Junior Enlisted Service Members
The impact of DoD Instruction 1344.07 and mandated reforms in Public Law 109-290 on
the quality and suitability of sales of financial products marketed to Service members was
generally effective. Although controls are generally in place on military installations to
protect Service members from sales of unsuitable life insurance products, responsible
officials can and should take further action. Sales of unsuitable life insurance products
sold by insurance agents for two companies continued on or near five of the six military
installations we visited. This occurred because:

    • Insurance agents used prohibited sales practices on and off the bases;
    • Some responsible installation personnel at Camp Pendleton and Marine Corps
      Camps in Okinawa, Japan, failed to comply with existing solicitation policies and
      guidance which contributed to agents using prohibited practices on bases;
    • Junior enlisted Service members inappropriately used the myPay system to
      initiate life insurance allotments;
    • Junior enlisted Service members rarely filed complaints to appropriate base
      personnel or the State insurance regulators; and
    • DoD did not have adequate knowledge of agents and companies debarred,
      banned, or limited from solicitation on DoD installations.

Although DoD has taken some corrective actions and some States have initiated actions
against insurance agents and companies, junior enlisted Service members continue to
purchase high-cost life insurance products considered unsuitable for most military
personnel and which may threaten their financial stability.

DoD, Military Services, and States Implemented Controls
Regulating Commercial Solicitations
Controls are generally in place on military installations and bases to protect Service
members from sales of unsuitable life insurance products. DoD and Military Services
  DoD and Military Services have have continued to update policies and training
  continued to update policies and regarding personal commercial solicitation to
    training regarding personal       safeguard and promote the welfare of Service
     commercial solicitation to       members as consumers. Further, they have
     safeguard and promote the        implemented a uniform approach to the conduct of
   welfare of Service members as      all personal commercial solicitation and sales by
            consumers.                dealers and their agents. In addition, the NAIC has
                                      implemented controls to assist State insurance
regulators with meeting reforms established in Public Law 109-290.




                                            6
DoD Controls
PDUSD (P&R) revised DoD Instruction 1344.07, “Personal Commercial Solicitation on
DoD Installations,” on March 30, 2006. The revision added new prohibitions and
requirements for on-base solicitations. For example, the DoD Instruction now requires
that:

   •   solicitors of financial products such as life insurance be duly licensed to sell the
       products, have an appointment with the individual, and provide Service members
       with an evaluation form and a written reminder that free legal advice is available
       on the base;
   •   agents refrain from engaging in commercial solicitation practices prohibited on all
       DoD installations;
   •   the Office of the PDUSD (P&R) maintain a list of all State Insurance
       Commissioner points of contact for DoD matters and forward this list to the
       Military Services;
   •   the Office of the PDUSD (P&R) maintain the Personal Commercial Solicitation
       Report and make available to installation commanders the current master file of
       all individual agents, dealers, and companies who had their privileges withdrawn
       at any DoD installation. The report identifies the companies and agents barred,
       reason for debarment, and length and location of debarment;
   •   Military Service Headquarters provide debarment information to the Office of the
       PDUSD (P&R) for inclusion in the Personal Commercial Solicitation Report;
   •   installation commanders report concerns or complaints about the quality or
       suitability of financial products, as well as the marketing methods used to sell
       them, to the appropriate Federal and State regulatory authorities; and
   •   companies selling financial products on overseas U.S. military installations
       register with the PDUSD (P&R) before agents apply for a permit to solicit. The
       list of registered companies is released annually to the appropriate overseas
       Combatant Commanders.

Army Controls
The Assistant Chief of Staff for Installation Management revised
Army Regulation 210-7, “Personal Commercial Solicitation on Army Installations,”
October 18, 2007. The Army Regulation includes policies and procedures outlined in the
DoD Instruction and changes the responsibility for personal commercial solicitation from
the Office of Adjutant General to the Office of the Assistant Chief of Staff for Installation
Management. The regulation applies to all Army military and civilian personnel and
requires garrison commanders to report to the appropriate State or Federal regulator
incidents involving licensing, compliance with State or Federal laws, and complaints
involving insurance or financial products or how they are marketed.

Along with policies and guidance, the Army provides soldiers training on the basics of
personal finance, such as understanding the Leave and Earnings statement and the Thrift
Savings Plan. Soldiers also receive more comprehensive financial management training
during advanced individual training. For example, soldiers are advised of different types
of insurance scams and consumer frauds, how to deal with high-pressure sales tactics,
                                             7
and how to identify individual insurance needs. In addition, soldiers receive base-level
financial training. For example, Army Community Services in Korea offers soldiers
personal finance training as well as optional courses that address insurance needs,
consumer rights, and scams.

Navy Controls
The Assistant Secretary of the Navy (Manpower and Reserve Affairs) revised Secretary
of the Navy Instruction (SECNAVINST) 1740.2E, “Solicitation and the Conduct of
Personal Commercial Affairs on Department of the Navy Installations,” July 12, 2008.
The instruction includes policies and procedures outlined in DoD Instruction 1344.07 and
updates policies, procedures, and requirements governing personal commercial
solicitation and insurance sales on Department of the Navy (DON) installations. The
revised instruction states:

               The installation commander shall presume that any life insurance
               product with any of the features described below is inappropriate for
               the needs of the military community...

               • Any life insurance policy in which the premium for life insurance is
               more than the amount that would be charged for Veterans’ Group Life
               Insurance coverage for a 25-year-old insured for the same amount of
               insurance coverage...
               • Excluding annuities, any life insurance product with a savings
               component or side fund...
               • …any life insurance product that does not meet the standards
               established in the NAIC’s “Military Sales Practices Model Regulation”
               and any standards adopted by the State in which the installation is
               located.

The revised Instruction also states if the agents have been denied permission to solicit
aboard any DoD installation or their permission to solicit has been revoked, the agents
may not engage in any commercial solicitation on any DON installation.

Along with policies and guidance, the DON and the U.S. Marine Corps provide general
training pertaining to consumer awareness and insurance needs. The training identifies
different types of scams and fraud, why Service members are targets for the scams and
fraud, and whom to contact if Service members have been subjected to prohibited
solicitation practices for unsuitable products. Insurance training describes how to
determine insurance needs and whom to contact for counseling, as well as common
mistakes made when purchasing life insurance. In addition, Marines receive training at
their respective bases. For example, Marines at Camp Smedley D. Butler in Okinawa
receive additional consumer awareness training that identifies prohibited on-base
commercial solicitation practices and whom to contact for assistance.

Air Force Controls
The Deputy Chief of Staff for Manpower and Personnel revised Air Force Supplement
DoDI 1344.07_AFI 36-2702, “Personal Commercial Solicitation on Air Force
Installations,” November 7, 2007. The supplement incorporates the policies and

                                                  8
procedures outlined in the DoD Instruction and specifically defines Air Force roles and
responsibilities. The Air Force Supplement states that the Installation Staff Judge
Advocates are responsible for reporting instances of withdrawal or notification of denial
of commercial solicitation privileges through the Major Command Staff Judge Advocates
to the Office of the Judge Advocate General of the Air Force, Administrative Law
Division.

Along with policies and guidance, the Air Force provides airmen with financial training.
In basic training, the Air Force warns airmen about life insurance products misleadingly
marketed as investments and offered to military personnel. Airmen are advised to consult
with the base legal office to determine if sales agents they encounter are banned from the
base, as well as to whom they should report abusive companies and agents. In addition,
when making decisions about life insurance purchases, airmen are advised to consult with
financial counselors at the Airman and Family Readiness Center and check with the State
insurance commissioner’s office regarding the agent and insurance company. Also,
airmen receive base-level financial training. For example, Sheppard Air Force Base
offers additional financial training to its airmen, including information on
Servicemembers’ Group Life Insurance, the Thrift Savings Plan, and “Red Flag”
warnings to look for when purchasing commercial life insurance.

State Controls
Shortly after Public Law 109-290 was signed, the NAIC appointed a Military Sales
Working Group to assist State insurance regulators in achieving applicable directives set
forth in the law. Early in the process, in conjunction with DoD, the NAIC developed a
Military Sales Educational Brochure with State contact numbers for military personnel.
This brochure has been circulated to State insurance departments and is available on the
NAIC Web site. Further, although not required by law, the NAIC and DoD have worked
together to develop a “Red Flag” advisory to alert Service members to sales practices
used by agents selling a life insurance policy as an investment or savings plan.

The NAIC, as mandated by Public Law 109-290, developed a Military Sales Practices
Model Regulation that sets forth standards for commercial solicitation and life insurance
products marketed both on and off military bases. The standards protect Service
members by declaring certain actions as false, misleading, deceptive, or unfair.

Insurance Agents Used Prohibited Sales Practices
Sales of unsuitable life insurance products sold by insurance agents for two companies
continued on or near five of the six military installations we visited. This occurred
because insurance agents used prohibited sales practices on and near bases, and some
responsible installation personnel at Camp Pendleton and Marine Corps Camps in
Okinawa, Japan, failed to comply with existing solicitation policies and guidance which
contributed to agents using prohibited practices on bases. We identified violations of
DoD Instruction 1344.07 and the State insurance regulations at areas on or near five of
the six military installations we visited.



                                            9
Based on the data DFAS provided, we identified Service members who had potentially
purchased life insurance products at each of the six sites we visited. We provided a non-
statistical sample of 1,319 names out of 15,665 allotments to personnel at the
installations, but because of the continued deployments and changes in duty stations, we
were able to meet with only 65 of those Service members. We asked them to complete
questionnaires to identify the purpose of the allotment, whether it was for insurance or an
investment product, and how junior enlisted Service members were solicited for the
purchase.

Of the 65 Service members who completed the questionnaires, 8 provided copies of the
product they had purchased. All eight products were life insurance policies with an
attached accumulation fund, which Congress considers unsuitable insurance policies for
most junior enlisted Service members. All of the policies came from two life insurance
companies, and average death benefit for each was approximately $44,000 for a total
monthly allotment of $158. These eight policies averaged approximately $111 of the
$158 allotment paid to the insurance premium and $47 of the $158 to the accumulation
                                       fund in the first year. In the second and subsequent
     Sixty-one percent of junior       years, the eight policies averaged $37 of the $158
   enlisted Service members with       allotment paid to the insurance premium and $121
   allotments to the banks owned       of the $158 to the accumulation fund. The fact that
     by these two life insurance       the premiums for the life insurance are front-loaded
     companies cancelled their         in the first year is significant considering that, from
    allotments within the first 12     the updated DFAS data we collected, 9,460 out of
     months, likely forfeiting the     15,484 (61 percent) of junior enlisted Service
     premiums paid for the life        members with allotments to the banks owned by
             insurance.                these two life insurance companies cancelled their
allotments within the first 12 months, likely forfeiting the premiums paid for the life
insurance.

The average allotment amount for the 8 policies we reviewed was $158 per month. This
is a large portion of a Service member’s pay, especially those in grades E1-E4, the group
on which our audit focused. For example, a monthly allotment of $158 would be more
than 10 percent of gross basic pay ($1,568.70/month as of January 2009) for an E2
Service member with 2 years of active-duty service. In addition, five of the eight Service
members were Marines, and certain features of the life insurance products provided by
the Marines violated the SECNAVINST 1740.2E policy on requirements for life
insurance policies sold on base.

Violations of DoD Instruction
Based on our interviews with Service members and the questionnaires they completed,
we concluded that insurance agents used prohibited practices on base at three of the six
installations we visited. In addition, some responsible base personnel failed to comply
with controls established in the DoD Instruction 1344.07, thus contributing to the
insurance agents’ use of prohibited practices on base. From the 1,319 names selected,
711 Service members were identified as having potentially purchased insurance while
stationed at Camp Pendleton; Marine Corps camps in Okinawa, Japan; and U.S. Army

                                             10
installations in Korea. Thirty-nine were available to complete our questionnaire. Of the
39 Service members, 25 purchased the life insurance policy on base.


On-Base Prohibited Practices Identified
Table 3 provides the number of prohibited practices identified by the 25 Service members
who completed questionnaires.

                Table 3. DoD Instruction 1344.07 Prohibited Practices
                 Section Number and Prohibited Practice                               Number
                                                                                     of Alleged
                                                                                     Violations
                                                                                        of 25
6.2.4 The conduct of all insurance business on DoD installations shall be by              9
specific appointment.
6.2.7.2 The use of an agent as a participant in any Military Service-sponsored          14
education or orientation program.
6.4.1 Solicitation of any DoD personnel in a “captive” audience where                   15
attendance is not voluntary.
6.4.3 Soliciting in barracks, day rooms and unit areas.                                 20
6.4.5 Procuring, attempting to procure supplying or attempting to supply non-            3
public listings of DoD personnel for the purposes of commercial solicitation.
6.4.7 Using promotional incentives to facilitate transactions or eliminate               2
competition.
6.4.9 Using oral or written representations to suggest or give the appearance that      15
the DoD sponsors or endorses any particular company, its agents, or the goods,
services, and commodities it sells.
6.4.13 Soliciting door to door without an appointment.                                   9
6.5.1.6 Using or assisting in using a Service member's “MyPay” account or other         10
similar internet medium for the purpose of establishing a direct deposit for the
purchase of insurance or other investment product.
E3.1.4 Insurance products shall not be marketed or sold disguised as investments.        6


Marine Corps Base Camp Pendleton, California
Before our visit in June 2010, we provided a list of 265 individuals we wanted to
interview and have complete questionnaires. The Camp Pendleton Legal Assistance
Office was able to locate only 11 of those Marines. The 11 Marines acknowledged they
purchased the insurance product. They said their first contact with the insurance agents
was during a sales presentation at a personal finance class sponsored by their battalion,
from March 2009 through June 2009. The insurance agent’s sales presentation and the
base personnel responsible for the presentation’s approval were in violation of
DoD Instruction 1344.07. As a result of our review, the 11 Marines filed complaints
through their Legal Assistance Office to the insurance company and obtained a refund for

                                               11
their premiums paid. The Legal Assistance Office filed formal complaints with the
California insurance regulator; however, we do not know the outcome because
complaints made to the State are confidential until final action is taken, and the action is
still pending.

Marine Corps Camps in Okinawa
Before our visit in June 2010, we provided a list of 221 individuals we wanted to
interview and have complete questionnaires. The Marine Corps presence on Okinawa is
divided into camps that fall under Marine Corps Base Camp Smedley D. Butler. Camp
Butler is the base support command for U.S. Marine Corps ground forces on Okinawa
and at Camp Fuji on Honshu Island, Japan. Camp Butler consists of numerous sub-
installations of varying size and mission, including, but not limited to, the Camps we
visited: Camps Kinser, Hansen, Courtney, and Foster.

We visited four Marine Corps Camps in Okinawa, Japan, and met with 17 Marines at 3
camps we visited – Kinser, Hansen, and Foster. We did not meet with any Marines at
Camp Courtney because none showed up. We identified prohibited sales practices by
sales agents for life insurance considered unsuitable for most Service members occurring
on base, a violation of DoD Instruction 1344.07.

Camp Kinser. At Camp Kinser, four Marines completed the questionnaire. Three
claimed that during their unit financial class, a life insurance agent provided a sales
presentation on saving for retirement. A DoD civilian teaching the financial class, also
attended by a noncommissioned officer, introduced the life insurance agent. None of the
Marines recalled providing their contact information to the insurance agent; however, a
few days later a staff noncommissioned officer directed the Marines to come to the
barracks lounge, where the life insurance agent took the Marines in groups of three to
four to solicit the life insurance products. The insurance agent’s sales presentation, the
agent’s cold calls to the barracks lounge to sell insurance products, and the
noncommissioned officers’ approval of these actions were in violation of
DoD Instruction 1344.07. As a result of the agent’s persistence, two of the three Marines
purchased unsuitable life insurance products.

The other Marine we interviewed stated that the life insurance agent first contacted him
when he was in field day 1 formation outside the barracks. He said that two civilians
                                   approached the Marines who were in formation to
      While it “appeared           begin cleaning and said they had information on
   voluntary” to provide the       military benefits. They stated that if the Marines
    contact information, the       provided point-of-contact information, the agents
  Marines were not allowed         would provide more information regarding the
  out of formation until they      benefits. The Marine stated that while it “appeared
          provided it.             voluntary” to provide the contact information, the
Marines were not allowed out of formation until they provided it. The Marine also stated



1
    Field day is a regularly designated day for Marines to clean the barracks.

                                                       12
that the agents came to the barracks on weekends for about a month, knocking on doors
and inviting Marines to the barracks lounge where they presented insurance information,
resulting in Marines buying insurance products. He said Marines accessed myPay on
their respective computers to set up the allotments. Actions by the insurance agents and
the noncommissioned officer violated DoD Instruction 1344.07. In addition, the Marine
stated that a strong selling point for the insurance product was an endorsement letter
provided by the insurance agent and signed by six retired four-star Generals and
Admirals (see Appendix C for a copy of the endorsement letter). However, the Marine
said he discussed the life insurance product with his personal financial advisor, and they
decided that it was not an appropriate product, so he cancelled the allotment after only 5
or 6 days.

With the assistance of Headquarters U.S. Marine Corps personnel, we attempted to
contact the retired generals and admirals to determine whether they actually endorsed the
two insurance companies selling unsuitable life insurance products to junior Service
members. In summary, we received responses from one of the retired generals and from
an aide for another retired general. Both confirmed the general officers had signed the
endorsement letter. However, they stated that the insurance companies were supposed to
send the letter to the DoD in an effort to allow other financial products to be offered to
Service members because, at the time, DoD was promoting only the Thrift Savings Plan.

Camp Hansen. At Camp Hansen, 11 Marines completed the questionnaires, 10 of whom
purchased the life insurance policy on base. Six of the 10 Marines stated that 2 insurance
agents, 1 of whom claimed to be retired military, showed up at the barracks without an
appointment. The two insurance agents set up computers in the barracks day room and
provided their sales presentation to the Service members. This was in violation of DoD
Instruction 1344.07. In addition, one Marine tried to cancel the policy within the first
10 days, but the insurance company was unresponsive. Six months later, the Marine met
with a personal financial manager for assistance. The Marine Corps Community Service
Office forwarded the issue to the Base Inspector General for possible action. However,
we informed the Marine Corps Community Service Office personnel they should advise
any future Marines with questions on life insurance sales to see their respective legal
services offices.

Camp Foster. At Camp Foster, two Marines completed questionnaires. One Marine
was referred by a friend to the life insurance company, and the other received an
unsolicited call on her cell phone from a life insurance agent. The insurance agent was
evasive and unresponsive when the Marine asked how the agent got her phone number.
The Marine informed us that she was not initially interested in the insurance product
offered; however, she became interested when the agent showed her the endorsement
letter signed by the four-star generals and admirals. Given these senior level
endorsements, the Marine stated she assumed the life insurance product was a good
investment and purchased it. She informed us it was not until later, after discussion with
a financial management instructor, that she realized she had actually purchased life
insurance with a side-savings product.



                                            13
During our visit to Marine Corps Camps in Okinawa, Japan, we spoke with Marine Corps
Community Service Office personnel who provide financial counseling services to
Marines. Responsible personnel stated that before our site visit, they were aware of some
issues with the sales of inappropriate life insurance on Okinawa. To heighten Marines’
awareness, personnel periodically disseminate articles on insurance scams and predatory
sales practices in Okinawa across their wide-area network. Also, Marine Corps
Community Service financial advisors informed us that they discuss different types of life
insurance at financial briefs for Marine Corps units; however, the financial advisors
stated they were unaware that they could advise the Marines to see their Legal Service
Office or to contact the State insurance regulators for assistance with violations of
prohibited practices for selling life insurance.

Marine Corps Installations in San Diego, California
Before our visit in June 2010, we provided a list of 203 individuals we wanted to
interview and have complete questionnaires at Marine Corps Recruit Depot in San Diego,
California. None of the Marines whose names we provided were at this location, and we
found no evidence of life insurance solicitation at the Marine Corps Recruit Depot in San
Diego, California. However, during our review, the Family and Financial Services Office
informed us that the allotment data for the San Diego area likely included Marine Corps
Air Station Miramar, California. We contacted the Staff Judge Advocate’s office at
Miramar, and Staff Judge Advocate personnel informed us a recent action with a life
insurance agent occurred on post. Specifically, a Service member complained that a life
        A financial counselor, who          insurance agent solicited insurance sales and
     forwarded the information to the       passed  out business cards after a mandatory
    command for investigation, which        financial class in September 2009. The
    resulted in Marine Corps officials      installation report filed with the California
   refusing to renew the agent’s pass.      Department of Insurance identified violations
                                            of State, DoD, and DON policies regarding
                                            prohibited practices. The Marine said that the
agent contacted him several times, which eventually resulted in his purchase of
unsuitable life insurance. He then related his unfavorable experience to a financial
counselor, who forwarded the information to the command for investigation, which
resulted in Marine Corps officials refusing to renew the agent’s pass. Additionally, the
Marine received a refund of premiums paid after he filed a complaint with the insurance
company.

U.S. Army Garrisons in Korea
Before our visit in June 2010, we provided a list of 225 individuals we wanted to
interview and have complete questionnaires. We were able to meet or teleconference
with 11 Service members during our visit, all of whom completed questionnaires. During
our interviews at U.S. Army Garrison, Camp Casey, one soldier stated he purchased a life
insurance product on base at U.S. Army Garrison, Yongsan. The soldier said an
insurance agent approached him and another soldier while they were shopping in the




                                           14
post-exchange and began discussing the benefits of the GI Bill. 2 The agent made an
appointment to meet with both soldiers in the barracks the next day to discuss more about
the GI Bill. There, the soldier said the agent provided them with an endorsement letter
signed by six retired four-star generals and admirals (see Appendix C), which led to his
purchase of what he thought was an investment. Further, the agent used his laptop
computer to access myPay online and had the soldier log into his myPay account and
initiate the allotment. These actions by the insurance agent are violations of
DoD Instruction 1344.07. The soldier mistakenly believed his allotment would apply
towards an investment and not life insurance. Also, the soldier stated he cancelled the
allotment after a month or two because the insurance company would not contact him
regarding questions he had about the product he had purchased.

In summary, insurance agents used prohibited sales practices on bases, and responsible
installation personnel failed to comply with solicitation policies on Marine Corps Base
Camp Pendleton and Marine Corps Camps in Okinawa, contributing to agents using
prohibited practices on base. These are violations of DoD Instruction 1344.07. In
addition, we identified insurance agents or companies that did not respond to questions or
concerns from Service members. Insurance agents and DoD responsible officials must be
held accountable for not complying with established controls to mitigate risks associated
with the financial welfare of military personnel and their families. Therefore, DoD
should consider updating financial training to Service members and explain that if
insurance agents or companies do not respond to questions or concerns, the Service
members should seek advice from a financial advisor.

Agents Violated State Insurance Regulations
Based on questionnaires completed by Service members, we concluded that insurance
agents engaged in practices prohibited by State insurance regulations on or near five of
  Insurance agents engaged in       the six military installations visited. State regulations
  practices prohibited by State     protect Service members whether sales occur on or off
   insurance regulations on or      base. The State in which the sales occur has
    near five of the six military   jurisdiction, and, for overseas sales, the State in which
       installations visited.       the company is domiciled has jurisdiction. Of the
                                    sample of 1,319 names of military personnel that we
identified as having potentially purchased insurance, 65 completed our questionnaire. Of
the 65 Service members, 40 indicated that the sales occurred off base.

States-Prohibited Practices Identified
Upon reviewing the States’ insurance regulations and the 65 completed questionnaires,
we identified the following violations, which occurred both on and off-base (Table 4).




2
 The GI Bill of Rights is the common name for the Servicemen’s Readjustment Act of 1944, which
provides education benefits to Service members.

                                                 15
                     Table 4. Violations of State Prohibited Practices
                                                                               Number of
                     States Insurance Regulations                               alleged
                                                                               Violations
The following acts or practices by an insurer or insurance producer
constitute corrupt practices, improper influences or inducements and are
declared to be false, misleading, deceptive, or unfair:
    •   Submitting, processing, or assisting in the submission of any             41
        allotment form or similar device used by the U.S. Armed Forces to
        direct a Service member’s pay to a third party for the purchase of
        life insurance. The foregoing includes, but is not limited to, using
        or assisting in using a Service member’s “myPay” account or other
        similar Internet or electronic medium for such purposes.
    •   Knowingly receiving funds from a Service member for the payment           35
        of premium from a depository institution with which the Service
        member has no formal banking relationship.
    •   Knowingly offering or giving anything of value to a Service               19
        member with a pay grade of E-4 or below for his or her attendance
        to any event where an application for life insurance is solicited.
    •   Advising a Service member with a pay grade of E-4 or below to             11
        change his or her income tax withholding or state of legal residence
        for the sole purpose of increasing disposable income to purchase
        life insurance.
The following acts or practices by an insurer or insurance producer lead to
confusion regarding source, sponsorship, approval or affiliation and are
declared to be false, misleading, deceptive or unfair:
    •   Making any representation, or using any device, title, descriptive        39
        name or identifier that has the tendency or capacity to confuse or
        mislead a Service member into believing that the insurer, insurance
        producer or product offered is affiliated, connected or associated
        with, endorsed, sponsored, sanctioned or recommended by the U.S.
        Government, the U.S. Armed Forces, or any Federal or State
        agency or government entity.



Fort Campbell, Kentucky
Before our visit in April 2010, we provided a list of 200 individuals we wanted to have
complete questionnaires. Because of deployments and change-of-duty stations, we were
able to meet with only 11 soldiers. Nine thought they had purchased a savings or
investment product, and they had purchased all products at a local shopping mall or
off-base housing.

Based on the questionnaire responses and discussions with Army Community Service
personnel, we met with Provost Marshall Office personnel and informed them of these
off-base solicitations. After our discussions, the Provost Marshall Office sent two

                                                16
investigators to the shopping mall office location, the site of inappropriate life insurance
sales. One investigator stated he thought the presentation was misleading, was unclear
about what the agent was selling, and that the agent had provided him with a letter of
endorsement signed by six retired four-star generals and admirals (see Appendix C).

After our site visit, the Fort Campbell Provost Marshall reported a soldier’s complaint
that an agent was giving out free raffle tickets to win a cruise and had been notified that
he had won it. The soldier was informed that he had to go to a local café to claim the
prize; however, when he arrived to collect his prize, the agent told him he had to purchase
life insurance to receive it. This is a violation of the Kentucky State insurance regulation.
An investigator with the Provost Marshall Office contacted the insurance agent and
substantiated the soldier’s complaint. During the investigator’s meeting with the
insurance agent, the agent asked about the investigator’s tax situation and eventually
opened the myPay Web site and asked him to log in. This is another violation of the
Kentucky State insurance regulation.

Fort Campbell held a Disciplinary Control Board meeting in October 2010 to put the
above agents’ business off limits; however, the Board refrained from making any
decisions and requested the proprietor appear at their next meeting after its review of
additional information. As of October 2010, command had not initiated action to stop or
deter soldiers from attending similar life insurance sales presentations by insurance
agents at the local mall. This practice continues to pose a financial risk to soldiers, as
shown in updated DFAS allotment data for the 4 months immediately following our site
visit. Data showed more than 250 new allotments initiated to 2 insurance companies.
These sales are potentially affecting the soldiers’ financial health, and command could do
more to mitigate risks to the junior enlisted soldiers. Because Tennessee and Kentucky
insurance regulators have not received any complaints from military Service members or
base personnel, and the States’ insurance regulators will not investigate the issues until
they receive complaints, States can do little to hold agents and companies accountable for
violations.

U.S. Army Garrison Camp Casey, Korea
Before our visit in June 2010, we provided a list of 225 individuals we wanted to
interview and have complete questionnaires. We were able to meet or teleconference
with 11 Service members during our site visit, all of whom completed questionnaires.
One purchased on base and 10 soldiers purchased the life insurance products off base as
follows:

   •   six stated they purchased the product at the insurance agent’s office outside the
       gate at Camp Casey;
   •   three stated they purchased the product in a hotel lobby outside Osan Air Base,
       Korea; and
   •   one did not provide the location where he purchased the life insurance.

Also, 7 of the 10 soldiers believed they had purchased a savings or investment product,
rather than a life insurance product.

                                             17
We went to the insurance agent’s office outside the gate at Camp Casey where the six
soldiers had purchased the insurance products. As enticement for soldiers to enter the
establishment, the storefront offered free financial planning and income tax preparation
assistance. In addition, the storefront displayed statements such as “free information
about your Military Benefits,” and “win a $500 AAFES gift card” (see Figures 1 and 2).
After our visit, responsible officials at Camp Casey informed us the agent’s office had
closed.


        Figures 1 and 2. Storefront Windows Outside of Camp Casey, Korea




In summary, the storefront displayed signs that could lead to possible confusion
regarding sponsorship and affiliation with the U.S. Armed Forces, and which could
confuse or mislead Service members. This is a violation of States’ insurance regulations.
The products and services offered by the business are routinely available for free at
installation Morale, Welfare, and Recreation offices.

Sheppard Air Force Base, Texas
Before our visit in April 2010, we provided a list of 205 individuals we wanted to
interview and have complete questionnaires. Only 15 Service members were available to
complete questionnaires regarding the purchase of a financial product. All 15 Service
members purchased the financial products off base at a shopping mall, and all stated they
thought they had purchased savings and/or investment related products. One of the
airmen stated that the agent informed him he needed to buy the life insurance with the
savings plan to make the savings portion tax-deferred.

Through questionnaires and interviews with the airmen, we were able to locate and visit
the store at the mall near Sheppard Air Force Base, at which a kiosk in front of the store
displayed the insurance agency’s name and the sign, “Attention Military Members
Register to Win.” The storefront displayed posters calling attention to the military and

                                            18
advertising free advice on Government programs such as the GI Bill, Veterans Affairs
Home Loan, and Thrift Savings Plan as well as information on budget and financial
planning, wealth accumulation, and savings and cash accumulation (see Figure 3).


        Figure 3. Storefront Display at Mall Near Sheppard Air Force Base




In summary, the storefront displayed a sign leading to possible confusion regarding
sponsorship and affiliation with the U.S Armed Forces, which violates States' insurance
regulations, and which may have confused or misled Service members. Financial
counseling services are available at every Airman and Family Readiness Center free of
charge (provided by all Services in respective member and family centers).

Inappropriate Use of myPay to Initiate Life Insurance
Allotments
Service members, sometimes facilitated by insurance agents, inappropriately used DoD’s
automated pay system, myPay, to initiate life insurance allotments. Based on interviews
and questionnaires, we concluded junior enlisted Service members signed up for life
insurance either on or off base. Moreover, in many cases, junior enlisted Service
members used computers provided by the life insurance agents to access myPay. Using
myPay to initiate allotments for insurance violates DoD policies and procedures, and
agents who assist Service members with using myPay accounts violate the State
insurance regulations.




                                           19
Violation of DoD and Military Service myPay Controls
DoD and Military Service guidance forbid the use of myPay for initiating insurance
allotments. Although DoD controls have been established to safeguard junior enlisted
Service members, they continue to use myPay to purchase life insurance products.

DoD Controls
The inappropriate use of myPay circumvents the 7-day cooling-off period, a safeguard
established by DoD Instruction 1344.07, which provides the opportunity to seek financial
  The inappropriate use of myPay        counseling. The cooling-off period, established for
   circumvents the 7-day cooling-       personnel in pay grades E-4 and below, occurs
        off period, a safeguard         when personnel use the required paper allotment
   established by DoD Instruction       form to initiate supplemental life insurance
    1344.07, which provides the         allotments. However, the paper-based process is
    opportunity to seek financial       circumvented by allotments initiated through
              counseling.               myPay, because those allotments are processed
                                        within 3 days. In addition, the DoD Instruction
directs installation commanders to deny, suspend, or withdraw permission for a company
and its agents to conduct commercial activities on base for various causes, including “the
possession of, and any attempt to obtain supplies of, direct deposit forms or any other
form or device used by Military Departments to direct a Service member’s pay to a third
party, or possession or use of facsimiles thereof.” The instruction includes using or
assisting in using a Service member’s myPay account or other similar Internet medium to
establish a direct deposit for the purchase of insurance or other investment product.

In addition, the myPay allotment screen specifically prohibits use of this medium for
insurance allotments. The screen states:

               Financial Allotments which may be changed using myPay are those
               voluntary deductions to financial institutions with direct deposit. This
               does not include such items as charity, insurance, thrift saving,
               garnishments, union or other organizational dues. For these changes,
               see your servicing payroll office or Customer Service Representative.



Military Service Controls
Army Regulation 37-104-4 “Military Pay and Allowances Policy,” June 8, 2005,” Air
Force Supplement DoDI 1344.07_AFI 36-2702, “Personal Commercial Solicitation on
Air Force Installations,” November 7, 2007, and SECNAVINST 1740.2e “Solicitation
and the Conduct of Personal Commercial Affairs on Department of the Navy
Installations,” July 12, 2008, require Service members to complete a paper copy of the
DoD Form 2558, “Authorization to Start, Stop or Change an Allotment.” Service
members should send the form to their servicing finance or disbursing office for
processing. The SECNAVINST 1740.2e also requires Service members to sign a
memorandum indicating they have received financial counseling before the allotment
form is processed. However, Service members can use myPay to initiate an allotment
authorizing DFAS to direct part of an individual’s pay to a savings or checking account
in the Service member’s name.
                                                 20
To strengthen existing DoD restrictions on the use of myPay for insurance allotments,
Government Accountability Office (GAO) Report No.09-452, “Insurance Sales to
Military Personnel: Additional Actions Needed to Prevent Improper Life Insurance Sales
and Pay Allotment Transactions,” May 29, 2009, recommended DFAS implement
controls and measures to improve its ability to detect and minimize the use of myPay to
initiate insurance allotments. GAO also recommended DFAS provide Federal and State
enforcement authorities information on companies that have been found to violate
prohibitions on the use of myPay to establish a financial relationship other than those
explicitly permitted. During our discussions with DFAS officials, they stated that they
analyze allotment data semiannually and send this information to GAO and plan to send
it to PDUSD (P&R). DFAS officials said their analysis of the data has shown trends
similar to those we found during our analysis, indicating the continuing sales of life
insurance. DFAS stated there is little they can do to stop these types of myPay allotments
altogether without significantly impacting all Service members.

Violation of State Controls
The NAIC’s Model Regulation, adopted by 49 States, the District of Columbia and
Puerto Rico, has identified the practice of insurers and their agents using or assisting in
using a Service member’s myPay account or other similar Internet or electronic medium
for the purchase of life insurance to be false, misleading, deceptive, or unfair. Further, it
prohibits insurers from receiving funds from Service members to pay for a premium from
a depository institution with which the Service member has no formal banking
relationship. Although controls for this situation are in place, insurance agents and
companies continue to circumvent these controls.

Because our review showed that junior enlisted Service members questioned continue to
use myPay to initiate insurance allotments, we asked DFAS officials about the possibility
of adding a pop-up box in myPay specifically warning Service members not to do so.
DFAS officials thought this was a reasonable suggestion and commented that if it
stopped other Service members from initiating life insurance allotments, it was a value-
added control. DFAS stated that they would determine the cost to change the system and,
if cost-effective, initiate action to obtain approval from the Configuration Control Board
to add a pop-up box to myPay. On February 4, 2011, DFAS informed us adding the pop-
up was considered a low level of effort, and cost for the pop-up box would range from
$2500 to $7500.

On February 9, 2011, DFAS informed us that the Configuration Control Board did not
approve adding the pop-up box to myPay because the Board believed the pop-up box
design would disrupt the myPay process and overwhelm users. The Board also stated the
pop-up box would have to be seen by all users initiating allotments and would require
them to click on the box to remove it, another disruption to the process. The DFAS
myPay office provided an alternative suggestion to add a flatline statement or warning to
the myPay screen. However, the current myPay screen has a similar statement. Based on
DFAS data shown in Table 1 on page 4, the current screen has not effectively deterred
potential myPay allotments for life insurance.

                                             21
The financial well-being of our Service members and their families is a priority. To
ensure the proper controls are in place to mitigate risks to junior enlisted Service
members, the pop-up box in myPay is a better control than the flatline statement or
warning on the myPay screen, especially since the control requires a low level of effort
and is low in cost.

Lack of Complaints From Service Members Limits
Corrective Actions
One of the challenges facing State regulators and military installation personnel seeking
to initiate actions against insurance agents and companies is that few of the Service
members affected make complaints. Some State insurance regulators we contacted said
they would conduct investigations of insurance company sales practices if they received
customer complaints. In addition, responsible installation personnel informed us that
Service members rarely file complaints. As a result, insurance regulators in some States
were unaware of the issues involving prohibited sales practices used to solicit junior
enlisted Service members.

Service members must complain to facilitate refunds as well as to initiate punitive actions
against sales agents or companies using deceptive sales practices. The following
statements use DFAS data to illustrate why Service members should complain:

   •   DFAS allotment data received in August 2010 showed 1,787 of 2,142 allotments
       started at Fort Campbell, Kentucky, were stopped within 12 months. However,
       junior enlisted Service members paid more than $600,000 into these allotments
       before stopping them.
   •   Insurance regulators in Tennessee and Kentucky received no complaints
       regarding these allotments.

The Director of the Tennessee Consumer Insurance Services, Department of Commerce
and Insurance, and the Education Coordinator, met with Fort Campbell Army
Community Services personnel in July 2010 and provided a financial awareness class to
incoming soldiers. Soldiers at Fort Campbell had initiated the highest number of
allotments on any installation but, as of September 2010, neither Tennessee nor Kentucky
Insurance regulators had received any Service member complaints; therefore, no
investigations were started.

A further analysis of the updated DFAS data, obtained in June 2010 for the Marine Corps
and August 2010 for the other Military Services, showed that Service members stopped
10,480 out of 15,484 (68 percent) of the allotments; 9,460 out of 15,484 (61 percent) of
which were stopped within 12 months. This could indicate that the majority of Service
members may be unsatisfied with the insurance products they purchased. Although
junior enlisted Service members stopped the allotments, they have potentially paid more
than $6 million into life insurance policy premiums, and because many Service members
did not file complaints, it is unclear whether they obtained refunds.



                                            22
Because complaints are critical for DoD and States to initiate actions against insurance
agents and companies, we discussed the need to update financial training with PDUSD
(P&R). Specifically, junior enlisted Service members must receive training on the need
to file complaints and the value of filing them. For example, Service members should be
informed that by submitting complaints, they can both facilitate refunds and initiate
punitive actions against sales agents or companies using deceptive sales practices, as well
as mitigate risks for other junior enlisted Service members who may otherwise purchase
unsuitable life insurance.

DoD Needs to Improve Knowledge of Debarred and
Banned Agents and Companies
DoD lacked adequate information about agents and companies debarred, banned, or
limited from solicitation on DoD installations. Specifically, DoD does not centrally
collect and oversee the reporting of all commercial life insurance sales violations against
military personnel under DoD Instruction 1344.07, Military Services’ policies, and the
States’ insurance regulations. PDUSD (P&R) is responsible for maintaining a list of
agents and companies presently debarred, banned, or otherwise limited from soliciting on
any or all DoD Installations as reported by the Military. In addition, PDUSD (P&R)
prepares the “Control of Personal Commercial Solicitation on DoD Installations” report
(Commercial Solicitation Report), which lists solicitation violations and posts the report
to the Web site at www.commanderspage.com.

During our review, we identified several States that have taken action against insurance
agents and companies that have violated the States’ insurance regulations; however, the
Commercial Solicitation Report included none of the States’ actions. Moreover, no
requirement exists for States to forward solicitation violations to DoD for inclusion into
the Commercial Solicitation Report. If an insurance agent or company is debarred from
operating in a State, then the State should provide the information to DoD. DoD and the
NAIC should work together to identify States’ actions against insurance agents and
companies for inclusion in the Commercial Solicitation Report.

In addition, we identified Disciplinary Control Board off-limits actions taken against
agencies and insurance agents; however, the Boards were not required to report those
actions to PDUSD (P&R) for inclusion in the Commercial Solicitation Report. If off-
limits actions are taken against agencies and agents, the Board should be required to
provide the information to DoD. If the Commercial Solicitation Report does not include
all actions against life insurance agents, agencies, and companies, DoD personnel
responsible for approving or taking corrective action on commercial solicitations lack the
information they need to make informed decisions.

Until DoD and the State insurance regulators work together to share more information
and to enforce both the DoD Instruction 1344.07 and the States’ insurance regulations,
some insurance companies will continue to sell unsuitable life insurance products to
junior enlisted military personnel. PDUSD (P&R) should obtain solicitation violations
from States and the Disciplinary Control Boards off-limits actions to include in the
Commercial Solicitation Report. This practice will help ensure responsible DoD

                                            23
personnel have information critical to deciding whether to grant base passes and
solicitation privileges and assist with ensuring enforcement of appropriate actions.

State Insurance Regulators Took Punitive Actions
In 2006, more than 40 State insurance departments collaborated through the NAIC to sign
a settlement with American-Amicable Life Insurance Company and its affiliates, Pioneer
American Insurance Company and Pioneer Security Life Insurance Company, which
were involved in improper sales of insurance and investment products to Service
members. The settlement required the companies to provide refunds and increased policy
benefits totaling $70 million to about 92,000 policy holders. The settlement was the
result of a 20-month investigation led by the Georgia and Texas insurance departments,
the U.S. Department of Justice, and the U.S. Securities and Exchange Commission.

To help locate Service members entitled restitution from American Amicable and its
affiliates via the settlement, the NAIC membership established a search tool on the NAIC
Web site in April 2009, through which individuals can conduct an online search using
Service members’ last name and first name to identify whether they are entitled to
restitution and the possible amount of restitution. As of February 21, 2011, the NAIC
search tool had a total of 18,463 unique users, a total of 33,505 searches, and 2,298 hits
(first and last name matches).

The NAIC developed the Military Sales Practices Model Regulation, adopted in
June 2007. Currently, 49 States, the Commonwealth of Puerto Rico, and the District of
Columbia have passed the law. Michigan is the only State waiting for final legislative
approval. In addition, various State insurance regulators have taken the following actions
since adopting the Military Sales Practices Model Regulation:

   •   Florida’s Office of Insurance Regulation reached an agreement with American
       Fidelity Life Insurance Company and Trans World Assurance on
       December 28, 2009, which resolved issues occurring around Pensacola Naval Air
       Station during 2008 and 2009. The companies agreed to pay penalties of
       $175,000 and $75,000. They were required to issue refunds to the sailors and
       Marines affected.

   •   In 2008, Georgia Department of Insurance banned Trans World Assurance from
       doing business in Georgia, fined the company $214,000, and ordered them to
       refund funds collected from active military sales in Georgia since September
       2007. Trans World Assurance appealed the decision but finally surrendered its
       certificate of authority to operate in Georgia on May 5, 2010.

   •   Illinois Department of Insurance took action on July 29, 2010, to revoke the
       licenses of an agency, American Mutual of Illinois, and three agents. They cited
       the agency for violations of the State’s insurance regulation, including
       misrepresenting life insurance as a “savings” plan at Naval Station Great Lakes.
       The insurance agency was fined $100,000, the maximum allowable fine in
       Illinois.

                                            24
   •   Oklahoma Insurance Department initiated an examination of the market conduct
       activities of a life insurance company after learning about the company’s non-
       compliance with the State insurance regulations in other states. The purpose of
       the examination was to determine compliance with the Oklahoma laws and
       regulations, primarily the new State insurance regulation. The examination found
       violations of 11 rules of the Oklahoma Administrative Code, such as prohibiting
       by default the diversion or transfer of funds in the side fund to pay, reduce, or
       offset any life insurance premiums due and receiving funds from a Service
       member from a depository institution with which the Service member has no
       formal banking relationship. The State issued an administrative order against the
       company on November 16, 2009. The insurance company appealed the ruling to
       a district court in Oklahoma, but on September 22, 2010, a judge denied the
       administrative appeal. The Oklahoma Insurance Department is currently working
       to issue an order dealing with the company’s conduct, which should result in
       penalties.

   •   California Department of Insurance came to an agreement with Trans World
       Assurance company for “violating regulations designed to prevent insurers from
       taking advantage of active duty Service members.” The settlement included a
       fine of $275,000, plus refunds of all premiums deducted from policy holders’
       savings since the State insurance regulation became effective.

While some States have taken action, other State Insurance Regulators should consider
proactive actions in reviewing the practices used by these insurance companies to solicit
junior enlisted Service members. Additional States’ actions could mitigate risks to junior
enlisted Service members of unneeded and costly life insurance.

DoD Took Corrective Actions to Mitigate Risks
During our review, DoD personnel initiated corrective actions to address issues and
mitigate risks pertaining to unsuitable life insurance products insurance agents were
selling to junior enlisted Service members on- and off-bases.

Sheppard Air Force Base Corrective Actions
Following our site visit to Sheppard Air Force Base, Texas, we were informed that the
Commanding General issued an emergency off-limits order prohibiting Sheppard Air
Force Base personnel from patronizing a sales office selling questionable life insurance
products to airmen at the local mall. Following the issue of the Sheppard off-limits order,
Security Forces Squadron personnel informed us that the office in the mall had closed.
Subsequently, the matter was brought up before the regional Disciplinary Control Board,
and the insurance agency was put off-limits to all Service members at Fort Sill,
Oklahoma.

Since our review, we obtained updated allotment data from DFAS in August 2010. After
reviewing it, we determined that in the 3 months following the signing of the off-limits
order, airmen had not started any new allotments to the three banks associated with the

                                            25
life insurance companies previously identified as selling unsuitable life insurance
products. The timely and decisive actions taken by Sheppard Air Force Base officials
resulted in the protection of airmen from prohibited practices regarding sales of insurance
and investment products.

Fort Campbell Corrective Actions
Following our site visit to Fort Campbell, Army Community Service personnel informed
us that they have updated and enhanced consumer awareness training to prevent junior
enlisted Service members from buying unsuitable life insurance products on- and off-
base. For example, Army Community Service personnel said they were adding the NAIC
“Red Flag” advisory to the First Term Soldier’s Financial Readiness briefing and will
provide a copy of the advisory to participants. The “Red Flag” advisory alerts members
of the Armed Forces to deceptive life insurance marketing and sales practices typically
used by agents selling life insurance policies as an investment or savings plan. The
advisory encourages Service members who have encountered deceptive sales practices to
contact their Financial Readiness Office or State insurance regulator for assistance.

Camp Pendleton Corrective Actions
Following our site visit, Camp Pendleton personnel informed us that they took action
against the insurance agent who conducted a financial training class and sold insurance
policies on base. Camp Pendleton personnel filed a complaint with the life insurance
company and subsequently received premium refunds for the Marines identified in the
complaint, and the insurance agent’s business pass was revoked. In addition, Camp
Pendleton personnel issued a Basegram, October 7, 2010, on the “Sales of Insurance,
Financial Products, and Classes.” The Staff Judge Advocate distributed the Basegram to
remind base personnel not to allow financial classes or presentations to Marines unless
the agents have previously been cleared to do so by the cognizant Staff Judge Advocate.
The Basegram also states all life insurance sales are by appointment only and to report a
known or suspected violation by calling the base insurance officer. Camp Pendleton
personnel also informed us they filed a complaint with the California State Insurance
regulators highlighting the prohibited practices used by the sales agent.

Marine Corps Japan Corrective Actions
Marine Corps Japan officials issued the Marine Corps Bases Japan Order 5340.2,
July 28, 2010, “Personal Commercial Solicitation on Marine Corps Bases Japan,”
establishing local policy on personal commercial solicitation. The Order requires all
insurance agents to have specific appointments, and all insurance products for sale must
be approved by the base Marine Corps Community Service activity. In addition, the
Order reiterates prohibited practices from DoD and DON guidance and should make
junior enlisted Marines aware of solicitation practices that are prohibited from occurring
on base.

Headquarters U.S. Marine Corps Corrective Actions
On January 18, 2011, Headquarters U.S. Marine Corps issued a Marine Administrative
Message (commonly referred to as a MARADMIN). MARADMIN 035/11, “Personal
Commercial Solicitation and Financial Education Classes” states that personal financial

                                            26
education classes, including such subjects as insurance, government benefits, savings,
credit and debt management, budgeting, and other financial education and assistance,
may only be presented by persons and organizations authorized by
DoD Instruction 1344.07 and SECNAVINST 1740.2E. In addition, it states that under no
circumstances may commercial insurance sales agents, including employees or
representatives of commercial loan, finance, insurance, or investment companies, be
allowed to conduct or participate in installation or unit personal financial education
presentations. It also restates that all personal commercial solicitation and insurance
sales onboard Marine Corps installations must comply with DoD Instruction 1344.07 and
SECNAVINST 1740.2E, and at no time will an individual be permitted to solicit
insurance or securities products on a Marine Corps installation without written
authorization from the installation commander. In addition, it encourages Marines to
seek counseling from disinterested third parties such as unit command financial
specialists, personal financial management specialists at Marine Corps Community
Services offices, or legal assistance attorneys before purchasing commercial insurance or
investment products.

Corrective actions taken by the Headquarters U.S. Marine Corps, Marine Corps Base
Camp Pendleton, and Marine Corps Base Camp Smedley D. Butler, Okinawa, Japan,
addressed the internal control problems identified during the audit regarding the
enforcement of existing commercial solicitation activities and practices on base Camp
Pendleton and Marine Corps Camps in Okinawa, Japan. Therefore, we do not make a
recommendation on this issue.

Actions for Congress to Consider to Assist with
Mitigating Risks
Congress, through Public Law 109-290, required the DoD OIG to conduct a study on the
impact of DoD Instruction 1344.07 and the reforms included in the Act on the quality and
suitability of sales of securities and insurance products that are marketed or otherwise
offered to members of the Armed Forces. This is our third and final review required by
the public law. On December 30, 2010, we provided briefing charts summarizing our
tentative findings to the Committee on Banking, Housing, and Urban Affairs of the
Senate and the Committee on Financial Services of the House of Representatives.

We found that some insurance agents continue to market high-cost life insurance
products with minimal death benefits and an accumulation fund, often as investment or
savings plans. However, many such sales occurred off-base near sites visited. As stated
in the Public Law 109-290, Congress considers these products “entirely inappropriate for
most military personnel.” The purpose of the Public Law 109-290 is “to protect members
                                     of the Armed Forces from unscrupulous practices
  Some insurance agents continue regarding sales of insurance, financial, and
        to market high-cost life     investment products.” However, Public Law
       insurance products with       109-290 addresses only those sales occurring on
    minimal death benefits and an    Federal land. Because we found that most sales at
         accumulation fund…          stateside installations we visited are occurring off-
                                     base, Congress should consider protective

                                           27
measures for Service members targeted for sales, regardless of location.

Although we understand “no act of Congress shall be construed to invalidate, impair, or
supersede any law enacted by any State” regarding insurance regulation, we believe
Congress might want to consider ways to encourage States with large military
populations to be proactive in investigating off-base sales of life insurance products,
particularly those it considers “entirely inappropriate for most junior Service members.”
Oklahoma, for example, is one State that has successfully undertaken such investigations.
Although DoD continues to address issues and risk areas regarding this matter, we
believe proactive actions by States with large military populations are critical for
mitigating risks for Service members.

Conclusion
DoD policies and the mandated reforms in Public Law 109-290 on the quality and
suitability of sales of financial products to Service members were generally effective.
Current controls provide safeguards and promote the welfare of DoD personnel as
consumers by setting forth a uniform approach to the conduct of all personal commercial
solicitation on and off military bases. However, responsible officials should do more to
protect Service members because:

    •   insurance agents and companies are using prohibited practices to circumvent
        controls through off-base commercial solicitation;
    •   some responsible installation personnel are not always enforcing solicitation
        policies;
    •   Service members are using myPay to process insurance allotments, which
        circumvents a critical time period needed for Service members to seek financial
        counseling; and
    •   Service members are not filing complaints to their installation command or to
        appropriate State insurance regulators, taking away the opportunity for refund of
        premiums paid as well as potential disciplinary actions taken against agents and
        insurance companies.

In addition, the Commercial Solicitation Report does not contain all actions against life
insurance agents, agencies, and companies because DoD does not have adequate
information about all actions taken and, therefore, does not include some Disciplinary
Control Board and State insurance regulator actions in the report. Without this data, DoD
misses opportunities to ensure responsible DoD personnel have information critical to
deciding whether to grant base passes and solicitation privileges and assist with ensuring
enforcement of appropriate actions.

Although DoD and some States initiated actions against insurance agents and companies,
junior enlisted Service members at the installations visited continue to purchase high-cost
life insurance products considered unsuitable for most military personnel and which may
threaten their financial stability. Based on the data in Appendix B, we believe the same
problems exist at other installations.


                                            28
Management Comments on the Finding and Our
Response
While the Deputy Assistant Secretary of Defense for Military Community and Family
Policy agreed with our recommendations, the Deputy Assistant Secretary provided the
following comments.

DoD Instruction 1344.07 Provides Sufficient Guidance
The Deputy Assistant Secretary of Defense for Military Community and Family Policy
stated that sufficient guidance exists within DoD Instruction 1344.07, “Personal
Commercial Solicitation on DoD Installations,” March 30, 2006, to address deficient
areas identified in the report.

Our Response
We recognize that the DoD Instruction provides general guidance as shown on page 7 of
this report; however, the reporting requirements of the Commercial Solicitation Report
should be made more specific to improve controls. Recommendation 1 specifies changes
to the reporting requirements that will improve internal controls. We also revised
Recommendation 1.a based on the Deputy Assistant Secretary’s comments.

Recommendations, Management Comments, and Our
Response
Revised Recommendation
As a result of management comments and follow up discussions with the Office of the
Deputy Assistant Secretary of Defense for Military Community and Family Policy, we
revised draft Recommendation 1.a to clarify reporting requirements needed for the
Commercial Solicitation Report.

1. We recommend that the Deputy Assistant Secretary of Defense for Military
Community and Family Policy, require the following information be reported in the
Commercial Solicitation Report:

    a. Agents barred the agency for which they worked, and the life insurance
company that underwrites the products being sold.

Deputy Assistant Secretary of Defense for Military Community
and Family Policy Comments
The Deputy Assistant Secretary agreed with the recommendation in the draft report and
stated that the agents/companies are currently listed in the report.

Our Response
The Deputy Assistant Secretary’s comments to the recommendation in the draft report are
responsive. While the Deputy Assistant Secretary is correct that the companies and
agents are listed, in some cases, we revised Recommendation 1.a to require that agents,
                                          29
the agency for which they work, and the company that underwrites the product being
sold, are all included in the Commercial Solicitation Report. We request the Deputy
Assistant Secretary provide additional comments to the final report that include
completion date for the planned actions.

    b. Disciplinary Control Board off-limits actions against insurance agents and
companies.

    c. State Insurance Regulators’ actions against insurance agents and
companies.

Deputy Assistant Secretary of Defense for Military Community
and Family Policy Comments
The Deputy Assistant Secretary agreed with the recommendations and stated that the
Office of the Assistant Secretary of Defense for Military Community and Family Policy
will:

    •   Direct the Services to include Disciplinary Control Board off-limits actions in the
        report.

    •   Request that National Association of Insurance Commissioners provide actions
        taken by State Insurance Regulators for inclusion in the report.

Our Response
The Deputy Assistant Secretary’s comments are responsive. However, he did not provide
a completion date for these actions. Therefore, we request that he provide comments on
the final report that include a completion date for the planned actions.

2. We recommend that the Deputy Assistant Secretary of Defense for Military
Community and Family Policy, require Military Services to update financial
training in an effort to increase junior enlisted Service members’ awareness
regarding the need for and value of filing complaints for deceptive or abusive life
insurance marketing practices and unsuitable insurance products.

Deputy Assistant Secretary of Defense for Military Community
and Family Policy Comments
The Deputy Assistant Secretary agreed with the recommendation and stated that they will
task the Services to develop materials to strengthen its Personal Financial Management
Training to highlight filing complaints regarding deceptive and abusive practices.

Our Response
The Deputy Assistant Secretary’s comments are responsive. However, he did not provide
a completion date for this action. Therefore, we request that he provide comments on the
final report that include a completion date for the planned actions.




                                            30
3. We recommend that the Director, Defense Finance and Accounting Service, add
a pop-up warning to myPay alerting Service members that they cannot use myPay
to initiate insurance allotments.

Defense Finance and Accounting Service Comments
The Deputy Director, Operations, Defense Finance and Accounting Service (DFAS)
proposed an alternative to the pop-up box. The Deputy Director stated that DFAS will
use an “alert message.” When the user selects an allotment from the myPay menu
options, the alert message will warn the user about potential inappropriate insurance and
investment allotments and that these allotments should not be started using myPay. The
Deputy Director also stated that DFAS presented the proposal at the May 12, 2011,
myPay Configuration Control Board meeting. The Deputy Director stated the proposal
was approved at the meeting. The change will be included in the myPay fall release,
tentatively scheduled for October 2011.

Our Response
We consider the Deputy Director’s comments responsive. Planned actions meet the
intent of the recommendation. No additional comments are required.

4. We recommend that the Garrison Commander, Fort Campbell, make a
determination on whether the life insurance business at the local mall should be off
limits to Service members. If the conclusion is yes, then the Commander should
initiate actions to put the agents’ business off limits.

U.S. Army Garrison, Fort Campbell Comments
The Garrison Commander, Fort Campbell, partially agreed with the recommendation.
The Commander stated the case is currently before the Fort Campbell, Kentucky, Armed
Forces Disciplinary Control Board and also stated the next meeting, July 2011, will
determine if the businesses and individuals should be placed off limits.

U.S. Army Installation Management Command Comments
The Commanding General provided the response for the Garrison Commander, Fort
Campbell, Kentucky. The Commanding General agreed with the recommendation and
endorsed the corrective actions planned by the Garrison Commander, Fort Campbell.

Our Response
The Garrison Commander’s comments are responsive and the actions meet the intent of
the recommendation. No additional comments are required.




                                            31
Appendix A. Scope and Methodology
We conducted this performance audit from January 2010 through May 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our finding and conclusion based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our finding and
conclusion based on our audit objective.

We performed this audit as required by Public Law 109-290, “Military Personnel
Financial Services Protection Act,” September 29, 2006. We reviewed the effects of
DoD Instruction 1344.07, “Personal Commercial Solicitation on DoD Installations,”
March 30, 2006, and the reforms included in the Public Law 109-290 at the following
locations: Fort Campbell, Kentucky; U. S. Army Garrison Yongsan, Sheppard Air Force
Base, Texas; Marine Corps Base Camp Pendleton, California; Marine Corps Recruit
Depot San Diego, California; and Marine Corps Camps, Okinawa, Japan.

We interviewed officials responsible for processing commercial solicitation permits on
the installations as well as officials from the payroll, financial services, legal services,
and investigation offices; representatives on the Armed Forces Disciplinary Control
Boards; and the office responsible for approving commercial sponsorships. We non-
statistically selected 1,319 names out of 15,665 allotments for 6 installations and had 65
junior enlisted Service Members complete a two-page questionnaire. We examined
installation procedures for allowing commercial solicitors on the installations and
reviewed documents pertaining to current investigations into inappropriate commercial
solicitation practices and products on the installations. We also reviewed the financial
and consumer awareness training provided to military personnel.

We contacted officials at the Office of the Under Secretary of Defense for Personnel and
Readiness; Defense Criminal Investigative Service; U.S. Army Installation Management
Command; Office of Assistant Secretary of the Navy (Manpower and Reserve Affairs);
Navy Installation Command; Judge Advocate Division, U.S. Marine Corps; Deputy Chief
of Staff for Manpower and Personnel; U.S. Air Force, Defense Finance and Accounting
Service; U.S. Pacific Command, Hawaii; US Forces Japan, Kadena Air Base, Japan; and
Marine Corps Air Station Miramar, San Diego, California.

We also contacted National Association of Insurance Commissioners personnel to discuss
current actions the NAIC is taking with regard to inappropriate life insurance sales to
members of the Armed Forces. In addition, we contacted the following State insurance
offices: Oklahoma Insurance Department, Tennessee Department of Commerce and
Insurance, Kentucky Consumer Affairs Office, California Department of Insurance,
Illinois Department of Insurance, Georgia Office of Insurance and Fire Safety
Commissioner, and Texas Department of Insurance to determine their coordination with
DoD and their efforts to protect military personnel from dishonest and predatory
insurances sales practices and unsuitable products.



                                             32
Use of Computer-Processed Data
We used computer-processed data to identify and select Service members who had
allotments taken from their salary to pay for life insurance. The data that we used came
from Defense Finance and Accounting Service’s Defense Joint Military Pay System and
the Marine Corps Total Force System. We reviewed data provided by DFAS showing all
allotments made by Service members in grades E1 to E4 through the myPay system from
January 2008 through March 2010 for the Army, Navy, and Air Force; and from
November 2007 through March 2010 for the Marine Corps. We tested the accuracy of
the data by having Service members fill out questionnaires and by conducting follow-on
interviews to determine whether their allotments were for life insurance. We did not
perform a formal reliability assessment of the computer-processed data. However, in our
opinion, a reliability assessment was not necessary to address the audit objectives.

Prior Coverage
During the last 6 years, GAO and the DoD OIG issued five reports discussing personal
commercial solicitation of military personnel. Unrestricted GAO reports can be accessed
over the Internet at http://www.gao.gov. Unrestricted DoD OIG reports can be accessed
at http://www.dodig.mil/audit/reports.

GAO
GAO Report No.09-452, “Insurance Sales to Military Personnel: Additional Actions
Needed to Prevent Improper Life Insurance Sales and Pay Allotment Transactions,”
May 29, 2009

GAO Report No. 06-23, “Financial Product Sales: Actions Needed to Better Protect
Military Members,” November 2, 2005

GAO Report No. 05-696, “Military Personnel: DoD Needs Better Controls Over
Supplemental Life Insurance Solicitation Policies Involving Servicemembers,”
June 29, 2005


DoD IG
DoD IG Report No. D-2009-056, “Personal Commercial Solicitation of Military
Personnel: Impact of DoD Actions and Public Law 109-290,” February 23, 2009

DoD IG Report No. D-2008-075, “Commercial Solicitation of Military Personnel on
DoD Installations,” April 7, 2008




                                           33
Appendix B. Top Five Allotments by
Service/Installation Started From January
2008 Through February 2010

   Service                     Installation                Number of
                                                           Allotments
                                                            Started
Army           Fort Campbell, Kentucky                              2,055
               Fort Hood, Texas                                     1,590
               Seoul, Korea                                           635
               Fort Bragg, North Carolina                             584
               Fort Sill, Oklahoma                                    554

Navy           Weapon Station Charleston, South Carolina             271
               Naval Air Station Pensacola, Florida                  189
               Naval Station Great Lakes, Illinois                   125
               Personnel Support Detachment Afloat-                  122
               Atlantic
               Naval Station Norfolk, Virginia                       104

Air Force      Sheppard Air Force Base, Texas                        896
               Keesler Air Force Base, Mississippi                   539
               Lackland Air Force Base, Texas                        444
               Kadena Air Base, Japan                                132
               Osan Air Base, Korea                                   86

Marine Corps   Camp Lejeune, North Carolina                        1,984
               Camp Pendleton, California                            585
               Okinawa, Japan                                        518
               Marine Corps Recruit Depot Parris Island,             181
               South Carolina
               Marine Corps Recruit Depot San Diego,                 158
               California




                                     34
Appendix C. Endorsement Letter




3




3
 Redactions in body of letter include names of life insurance companies and company executives.
Redactions in signature blocks are of six retired four-star flag and general officers.

                                                  35
Office of the Deputy Assistant Secretary of Defense for
Military Community and Family Policy Comments




                    Click to add JPEG file
                           Final Report
                            Reference




                         Revised
                         Recommendation
                         1.a




Click to add JPEG file
Click to add JPEG file
Defense Finance and Accounting Service Comments




                  Click to add JPEG file
Click to add JPEG file
U.S. Army Installation Management Command Comments




                 Click to add JPEG file
U.S. Army Garrison, Fort Campbell, Kentucky Comments




                  Click to add JPEG file
Click to add JPEG file
